    CHILD SUPPORT ENFORCEMENT

     COLLECTION FOR NON-AFDC

                        CLIENTS




   " 'iU,VICEs
                 . c,




   ."'lJa


OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS

                                     JUNE 1989
   CHILD SUPPORT ENFORCEMENT

       COLLECTION FOR NON- AFDC
               CLIENTS




               Richard P. Kusrow
               INSPECTOR GENERAL




OAI-   05-                         JUNE 1989
                                                                 , .

                                  EXECUTIVE SUMMARY


 PURPOSE

 Child suppon enforcement (CSE), as a method of offsetting costly welfar programs, is a
 major concern of the Bush admistration and is a major element of the welfar reform bil re­
cently passed by the Congress. The Depanment of Health and Human Services
tiatives rase th   major CSE issues:
                                                                          (DHHS) ini­


      (1) more than 40 percent of the
      childrn rased in a single parnt
      household ar not covere by a
      coun order;

      (2) only hal of the absent parents
      with a coun order pay the full
      amount of the suppon due - almost
      $3 bilion was not paid in 1983;

      and
                                                   1. Over 40   of chdre are not coere by a coun
     . (3) the coun orders being estab-            orer.
       lished were not realstic in terms           2. Ony hal of the absent parets   pay   fu supprt
                                                   amolDt - over $3 bion not pad.
       of the absent parnt s abilty to pay
                                                   3. Cort ordrs do not   reflec absent paret s abilty
       and the suppon needed to provide            to pay.
       basic needs for the child. This pro­
       gram inspection specifically set
      out to determe if there was a sys­
      tematic way to identify absent par­
      ents who could contrbute more to their childrn s support.

The Offce of Inspector General (OIG) conducted this study of CSE for childrn not receiving
welfare assistace though the Aid to Famies with Dependent Childrn (AFC) program.
This study is a follow-up to our August 1987 study of CSE involving AFC cases, but was
conducted prior to enactment of the Famly Suppon Act of 1988.

MAJOR FINDINGS

Substantial savings can result from a targeted review of child suppon cases dormant during
the time period examed by this study.

     Most IV - D agencies do not systematically reopen cases that did not produce a court
     order for child support, or attempt to modfy low suppon orders, or purue collecrion of
     ararages and withholding of wages.
                                                                                        '.




The OIG reviewed 3, 241 non- AFDC child suppon cases in 9 States where no suppon
order had been established, or the monthly suppon payment was $100 or less per child
or child suppon arearges existed. A match of the absent parnt s known Social
Securty Number (SSN) was made with the Social Securty Admnistrtion s (SSA)
Earings Reference File (ERF). The results showed in pan:


       Fony-six percent of these absent parnts eared more than $10 00 in 1986,
       averaging $21, 719 in wages. These earings represent a 77 percent increase
       from the year prior to the establishment of the most recent support order, or in
       cases without suppon orders, the year before the IV -D agencies opened a child
       suppon case.

The ERF data helped to identify " most wanted" absent parents who are likely to be able
to meet a child support obligation , set at an equitable rate.

       There were 12 absent parents in our study who eared more than $30, 00 in
       1986, yet had no child suppon obligations. Using the Wisconsin child suppon
       guidelines, which are ' considered easy to use, these cases would produce child
       suppon payments of $82 568 annually for their childrn.

       An absent parent with.. monthly suppon obligation of $120 eared more than
       $125, 00 in 1986. The Wisconsin guidelines would requir child support
       payments of $3, 229 monthly, more than twice the amount of his curent annual
       obligation.

       A radiologist owing more than $38, 00 in child suppon eared     more than
       $205, 00 in 1986.

Historical differences in program coverage and reponing deficiencies on the pan of the
States make it diffcult to project a precise cost saving amount. However OCSE'
twelfth anual report to Congress reported $3, 398, 555, 091 as the non- AFC arars
outstading as of September 30, 1987. Some of these non- AFC cases did at one time
receive AFC benefits and some of the ararges were incurd at that time. We
estiate a rage between $765- 850 millon that could be collected by tageting those
curntly earing over $10, 00, whose cases presumably represent AFC arearages
still owed. The percent of AFC ararages that ar included in the non- AFC
ararges was estimated bas on findings at a sample of CSE sites. The Federal
savings represented by this range is approximately $245- $270 millon in ararges that
accumulate while the recipient was receiving AFC payments.

We calculated our savings as if we had successfully iden fied all the non- AFDC ;Irrl
age cases in the States we visited. Thus, our savings range may be somewhat Ulll!t
stated.
     Based on our review of all the appropriate non- AFC cases we could find at a sample
     of cSE sites around the countr, famlies could benefit by an additional $125 to $139
     millon though the establishment of new court orders and modfied low coun orders
     based on these types of cases.

      This range of increased collections takes cognizance of mitigating circumstances, such
      as shared physical custody and absent parnts with more than one child support obliga­
      tion.

Despite ongoing assistance from OCSE, systems, staffmg, and   other problems have hindered
the IV- D agencies in their non- AFC collections.

     The number of trly active non- AFC cases is unkown , since some IV- D agencies
     have no mechanisms that would alen them when the custodal parnt moves out of their
     jursdiction, reaches an understanding with the absent parent, or hires a private attorney
     to pursue their case.

     At the time of our field work, many of the IV -D agencies severely restrcted contact
     with their non- AFC clients due to staff shortages. The IV- D agencies do not appear to
     be equipped to deal with the volume of the cases nor the demads of the non- AFC
     clientele.

     The IV-D   agencies were frstrate by interstate cases. They were often displeased with
     the results received on cases where they request assistance from other States, whereas
     responding States complain about inadequacies in the infoFIation conveyed to them
     with requests for assistace.

The OCSE has undertaken a number of actions to address many of the non- AFC related
problems.

      Speific case closure   criteria and tie       takng actions on child suppon cases
                                                frames for
      have been develope and ar being promulgated as Federa regulations. These steps
      snould serve to remove cases frm the IV- D workload that no longer require CSE action.

      Final regulations were published in Februar of 1988 governing the provision of
      services on interstate cases to ensure consistent and expeditous treatment. Continued
      OCSE stress on these cases should lead to improved handling and more equitable
      consideration of these matters.

      The Famiy Suppon Act was enacted i October of 1988. Considerable activity is
      underway that wil ,address the mandatory use of child support guidelines, the periodc
     review of the adequacy of child suppon coun orders, provision for immediate wage
     withholding on all new cour orders, and use of employment information accessed
     through State employment security agencies.


RECOMMENDATIONS

For those non- AFC cases needing enforcement of an existing suppon order, State IV-D agen­
cies should prioritize their non- AFC cases by identifying the absent parents that have the
means to make significant contrbutions toward the support of their childrn. The Fed­
eralState pannership in assisting these childrn can provide additional impetus toward this
goal.

     Within limits permissable under Federal regulation, States should perform a logical,
     systematic review of all cases, and as a minimum, should target the cases where absent
     parents are earning more than $10, 000 annually.

      The techniques to systematically review these cases may var (for example, matchmg
      the SSN' s of non- AFC absent parnts with SSA s earings records, Internal Revenue
      Service (IRS)or with State employment security fies). These records can be used to
      help modfy low suppon orders or undenake wage withholding from those in arears.
      They can also be helpful in establishing the amount of new suppon orders. No addi­
      tional Federal legislation wil be required.

Agency Comment:

      The FSA agrees with the basic findig that there is a grat deal of potential for increas­
      ing child support collections through the use of a systematic case follow-up andsubse­
      quent upward modfication of coun orders. They noted that there is no legal
      requirement for the States to perform periodc review until October, 199.0.

      The IV-D  agencies should periodically advise the non-AFDC clients on the status of
      their cases.

      Non- AFc clients may be discourged from inquirng about their cases, or from provid­
      ing new data that could help resolve the case. The OcSE is establishing, in regulation,
      time stada     for case action and case closur criteria that wil enable many of these
      cases to be updated or closed. The notification of this new status would resolve many
      questions, allow IV- D agencies to actively work or close those cases, and help identify
      the need for process simplification, procedural change or additional staff.
Agency Comment:

      The FSA stresses that one of the key reasons for these new performance standards is to
      attempt to enhance both the effectiveness and effciency of all     agency services.

      The OCSE should continue to work toward making intrastate and interstate employment
      information available to N -D agencies.

      The OCSE is working with the Depanment of Labor (DOL) to gain entr into the em­
      ployment security databases maintained by States, and is supportng the development of
      a child suppon enforcement telecommunications network. In Januar of 1989, an inter­
      agency agrement was consummated between DOL and DHHS, as required by the Fam­
      ily Support Act. Access to this information by IV- D agencies would be one facet of a
      long term solution to questions of absent parent location and collectibilty.

Agency Comment

      The FSA points out that the Federa Parent Locator Service must now negotiate the
      agreements with each State to faciltate the use of this data.


Other minor technical and editorial changes were made in the fmal repon as a result of the
FSA' s comments.
                                     INTRODUCTION


PURPOSE

Child suppon enforcement (CSE), as a method of offsetting costly welfar programs, is a
major concern of the Bush administration and is an important element of the welfare reform
bil recently passed in the Congress. Since may single-parent famlies are living close to the
povert level , the regular payment of child support may be essential in avoiding welfare de­
pendency. A recent study indicates that women and their childrn    experience a 73 percent de­
cline in their standad of living immediately following a divorce, while their ex- husbands
                                     1 This program
actual income increases 42 percent.                  inspection examnes ways to increase
child support collections for children not receiving Aid to Familes with Dependent Childrn
(AFDC). We specifically set out to determne if ther was a systematic method of identifying
those absent parents who were in a position to contrbute more to their childrn   s suppon.

The Offce of Inspector General (OIG) conducted this inspection as a follow-up effon to an
August 1987 study of CSE on AFC cases. In both studies we analyzed individual child
support enforcement cases and determed absent parents ' reported yearly income through a
computer match with the Social Securty Admnistrtion s (SSA) Earings Reference Files
(ERF). This enabled us to determne how much money might be available to non- AFC chil­
dren who ar entitled to child support that is curently not collected.

In the course of this curent study, we also looked at the operations of cSE agencies (called IV­
D agencies) and investigated issues and problems with the curnt system of collecting child
support for the non- AFC clientele. The findings from our analysis of income records and
evaluation of agency operations allowed us to then arve at recommendations regarding what
measures would maimize child support collections by faciltatig CSE efforts to establish
modify and enforce child support court orders.


METHODOLOGY

A geogrphic mix of 10 States was chosen for inclusion in this study. One metrpolitan
county was selected in each of these 10 States for analysis of case data. Initial contacts were
made with State IV- D dirctors and mutually agreeable settings for case reviews were made.

Case data were collected for 3, 241 non- AFDC cases from the IV- D offces in the selected
counties inth   categories of cases:

       (1) thqse opened prior to Januar 1986 where no coun order had been obtained;
       (2) those with support orders at least 2 year old with monthly support amounts of
           $100 or less per child; and
       (3) those with ararages, regardless of age.
We matched absent parent Social Securty numbers (SSN' s) extrcted from IV- D agency
casefies with the ERF to determe the absent parnts ' past earings and consequently their
ability to pay child support. In this analysis we concentrated on the earings for 1986 , the
most recent year available , and for the year in which the most recent coun order was estab­
lished. In cases without coun orders, we considered earings for the year before the case was
brought to the IV-D agency. The data were analyzed on a case- by-case basis. All projections
were made based on this representative sample of the observable universe.

The ERF' s include employment information such as the employee s annual earings, the name
and addrss of each employer and the amount paid by each employer. Earings for the prior
year are usually poste in June. For example, 1987 earings should be posted to SSA records
by June 1988. This informtion is available to local CSE agencies. We have furnished the Of­
fice of Child Support Enforcement (OCSE) with the SSA earings records for the cases we re­
viewed where the absent parent has earings in excess of $10, 00 in 1986. Summar data for
all other cases in the study have also been provided to OCSE.

Projected coun order amounts for the cases without suppon orders, or with low support or­
ders, ar based on the Wisconsin formula of calculating child support amounts. This well-
known formula is one of severa guidelines for setting child suppon payment amounts, and
was chosen for its ease in computing equitable child suppon estimates. Appendix A explains
the Wisconsin formula for determning child suppon payments.

Federal and State savings were computed only for ararage cases. These savings were calcu­
lated by attbuting a ponion of the tota ararage amount to AFC ararages owed the IV-
agencies. Not all non- AFDC cases in arear were once AFDC cases. However, we were able
to calculate what percentage of each arearge amount, on average, would be expected to be
AFDC. monies based on arearage data available frm four States. Appendix A further ex­
plains this methodology.

Interviews were conducted with State IV- D diectors and, at the county locations, with CSE di­
rectors and case investigators. In addition to interviews with State and local offcials, in-per-
son contacts and telephone discussions were conducted with individuals having expertise in
child suppon enforcement issues. These included child suppon legislative advisors, sociolo­
gists, authors, attorneys, and representatives of child suppon advocacy groups such as Single
Parnts Unite " N" Kids and the National Women s Law Center.          Newspapers, journal ani­
cles, books, and Government reports were reviewed for relevant child suppon information.
                                       BACKGROUND

FEDERAL CHILD SUPPORT LEGISLATION

The cSE    progr was established in 1975 to ensure that children are supported by their par­
ents, to foster famly responsibilty, and to reduce the cost of welfare to tapayers. The pro­
gram , a Federa and State initiative authorized under title IV- D of the Social Security Act
originally focused on establishing and enforcing suppon orders for the AFDC population , thus
reducing Federa expendit res for public assistance.

The policies of OcSE, within the Famly Suppon Admistration (FSA), curently are de­
signed to assist AFC and non- AFC custodal parents in collecting child support owed and
help prevent poveny. Money collected for non- AFC famlies goes diectly to the family to
help them reman self-suffcient, and thus avoid AFC payments, Foo Staps and Medicaid.

In the years since the 1975 cration of the cSE program, severa amendments to the original
act have incrased States ' powers to collect child suppon payments. For example, the amend­
ments of 1980 gave IV- D agencies access to the SSA wage information and also provided
funds for cSE systems development. As a result of the amendmnts of 1984 , States could
now garish wages and offset State tax refunds and other compensation from absent parents in
arars. However, these pieces of legislation also required States to make substantial improve­
ments in their CSE programs. As a result of the 1984 amendments, States were required to
provide financial guidelines to thejudiciar and pass implementing legislation in order to ex­
pedite the judicial process on CSE cases.

Pror to 1984 , States had a great deal of discretion in the non- AFC services they chose to
offer. The original CSE legislation specifically gave priar responsibilty for operation of
the CSE progrm to the States, pursuant to a State plan. Reference to the non- AFDC popula­
tion in the law consisted only of a statement that States were to establish paternity and secure
suppon for " others " who apply directly for CSE services.

The Social Security Disability Amendments of 1980 began the non- AFC effort by authoriz­
ing the use of the Internal Revenue Service (IRS) to collect child suppon arearges on behalf
of non- AFc famlies. In addtion, the Adoption Assistance and Child Welfar Act of 1980
contaned four amndments to title IV- D of the Social Securty Act, one of which made Fed­
eral Financial Parcipation for non- AFDC services available on a permanent basis.

The 1984 Child Support Amendments (P. L. 98- 378) represented a watershed for those seeking
non- AFc servces. This legislation funhered the non- AFc effort by requirng IV-D agen­
cies to provide equal services for " all" families needng them. This law extended the intercep­
tion of Federa income ta refunds to non- AFC cases, requird States to publicize the
availabilty of non- AFDC suppon enforcement services, and for the first time, provided incen­
tive payments to the States for non- AFC cases.
The availabilty of service to AFC and non- AFC familes is vita to a large segment of the
population. In 1985, almost one quaner of all children lived in single- parnt families; almost
90 percent of these children lived in families headed by divorced or separated mothers and to
                                         4 The
a lesser extent, never-mared mothers.           United States Census Bureau found that in
1985, the poveny rate for childrn in femae- headed households was 54 percent, four and one-
half times the rate of children living in poveny in the United States.

The OCSE has undenaken a number of actions to address many of these problems. They have
developed regulations that would prohibit retractive modification of suppon orders, provide
for specific case standads for IV-D agencies, make all coun orders judgments, tighten con­
trols on interstate cases, and strngthen the cooperative agreements between CSE agencies,
the couns and law enforcement agencies.

The Famy Support Act of 1988 mandates considerable OCSE activity, much of which is al­
ready underway. The IV- D agencies wil be required to periodcally review child suppon
coun orders, impose immedate wage withholding on all new, or revised court orders, ensure
that orders agre with established guidelines, and improve paternity establishment. The
OCSE and the Depanment of Labor (DOL) have entered into an interagency agrement that
wil assist CSE agencies in their use of State wage repOrting databases. This agrement
should furer OCSE in their development of a child support. enforcement telecommunications
network.
                                      FINDINGS

A, " MOST WANTED" ABSENT PARENTS
    Periodcally, local prosecutors employ a " Father s Day Roundup," or simlar method to
    attrct media attention to those absent parents with large child suppon ararages.
    These events also call attention to the plight of the custodal parent who is attempting
    to manage a single- parent famly without the funds ordered to them in coun. How­
    ever, these " roundups " often do little more than identify who the delinquent absent par­
    ents ar, since many ar unemployed and are unable to make payments to the child.


    Using the ERF data, we have identified the " most wanted" absent parnts who have
    considerable earings, and fall into one of our thre categories: they do not have child
    suppon coun orders, they have a low suppon order, or they ar in arars exceeding
    $10, 00.

          There were 12 absent parents in our study earing more. than $30,00 in 1986,
          yet had no child suppon obligations. Seven of these 12 cases are not being
          pursued because the whereabouts of the absent parnt were not known.
          Establishing coun orders for these 12 absent parents would produce child
          suppon payments of $82, 568 annually, based on the Wisconsin formula.

          Eleven absent parnts with low suppon orders eared more than $50, 00 in
          1986. One absent parent employed at an auto dealership bearng his name
          eared $125, 00 in 1986. His child suppon order for his four childrn totals
          $120 per month. In the year prior to the establishment of that order, he eared
          $5, 058. Based on the Wisconsin formula, he would be responsible for monthly
          support payments of $3, 229, which is $1 789 more than the $1,440 he currently
          pays annualy.

          Another absent parnt apparntly owns a plumbing and heatig fIrm, and eared
          $121, 300 in 1986. He pays $80 monthly towar the suppon of his child. The
          year prior to settg the cour order, he eared $12, 712. The Wisconsin
          guidelines would curntly set his monthly suppon payment' at $1, 718. His
          currnt annual obligation is $960.


          There ar eight absent parents included in this study who eared more than
          $50, 00 in 1986 and owe more than $10,00 in child support payments. One
          absent parent, a radiologist owing $38,463 in payments, eared $205, 443 in
          1986. Another absent parnt, working for an insurace firm and in the Air Force
    Reserves, eared $96, 553 in 1986. He owes $20, 700 in child suppon. A third absent
    parent owing $10, 107, eared $88, 682 in 1986, also working for an insurance com­
    pany.

B. EARNINGS ANALYSIS SUMMARY
    Working Absent Parents
    Our case review of 3, 241 records found the absent parents averaging $11 468 in ear­
    ings in 1986. Seventy-nine percent of these absent parents were employed that year,
    with nearly half earing over $10, 00.

                              % Breakdown of Sample Cases
                                Based on 1986 Earnings
                  10011
                            .- E_- # of Cases
                   80% .
                                                      :a3.,.,..."....
                               li E8mln.. 


                   6011 .




                   2011 .


                    011
                            No Syppori Onl.,   Low Suppari Onl...   0.. on Suppori





    The absent parnts of non-       AFC children were employed at similar rates to their
    AFC counterpans in our study of those cSE cases.

                  Percentage Of Absent Parents Employed
                          AFDC And Non- AFDC
                                         Non- AFDC                             AFDc
                                       Absent Parents                      Absent Parents

                                     Employed in 1986                   Employed in 1985
                                       (n=3241)                            (n=4684)

  Cases without
  Coun Orders                                  71%                                63%

  Low Coun
  Order Cases                                  81%                               79%

  Cases with
  Ararages                                     77%                               77%
         Increase in Wages
         The 1986 earings for the absent parnts             presents a 38 percent incrase from
                                                       studied
         the $8, 304 eared, on average, for the year prior to the most recent coun order, or
         alternatively for cases without suppon orders, the year before the IV- D agency opened
         their cases.

         In summar, our case review of 3, 241 records found 46 percent of the absent parents
         earing over $10, 00 in 1986. These absent parents average a monthly child support
         obligation of $161 , which would be increased by 116 percent to $350 if the Wisconsin
         guidelines were used. They average $6, 549 in arars.


                                          Income Data For
                                All Non- AFDC Absent Parents
                                Earning Over $10, 000 In 1986
                                           (n=1487)


       (A)                      (B)                       (C)                       (D)
       AVERAGE                 1986                   PERCENTAGE
       BASE YEAR             AVERAGE                     INCRASE                AVERAGE
       EARGS.                EARGS                       (B) vs. (A)           ARARS..
       $12, 277                $21, 719                     77%                   $6,549



         . Bas year  is dermed as the yea before the data of the cwrnt coun order for low coun orders
           and arearge cass, and as the yea prior to IV- D involvement for the no coun order ca.
          .. Includes only low coun orders and mea.


         All Absent Parents
         All absent parnts in our study averaged $11,468 eared for 1986. This represents a
         38 percent incrase from the $8, 304                       for the year prior to the
                                                   eared, on average,
         most recent coun order, or alternatively for cases without suppon orders, the year
         before the IV-D agency opened their case.


C. REVIEW OF CASES
1. "     " Child Support Order Case

         Working Absent Parents
         Of the 189 cases without support orders, 71 percent of the absent p nts were
         employed in 1986. Thir- four percent (64) of the absent parents eared over
         in 1986, with another 37 percent having earings less than $10,00.
  Increase in Wages                   var               frequently the absent parnt
                                                      over tie and
  The abilty to pay child support can             parnts in cases without support
  experiences an increase in wages. The 64 absent
  orders who eared over $10,
                              00 in 1986, averaged $13, 879 in wages the year before
                                                                                   686
                                    D services. These absent parents averaged $20,
   the custodal parent applied for IV-
   in wages in 1986, representing an increase of 49 percent.

   Projected Support Payments                 how much these absent parentS without
   Using the Wisconsin formula of calculatig                       childrn, these same
   suppon orders should be expected to pay in1986         for their 87 annually in
                                     00 in childwould
                             earing over $10,

                                                   suppon
                                                       pay $260, 314.
    64 absent parentS
                                average $338. 95 in monthly child suppon paymentS,  or
    child suppon. They would
    $4,067. 41 annualy. Ths
                              amount alone             exce
                                                     the             AI
                                                                nee stadas in 5 States,
                                         ' standas. Collecting child support in these
    and is within $150 of 16 other States thugh child suppon alone, that would render
    cases would therefore secure income, many States.
    these famies ineligible for
                                 AFC in
                                               orders could be established generating
    Nationaly, we estimate that child suppon
                                          currently receiving no child support. Precise
                                              since factors such as shar
    betWeen $10- $12 millon for childrn                                     physical custody
                                 determed
    collection amounts cannot be
                                     ould   itigate against the full guide ine amount bein
    and other existing coun orde                                                      caseS.
     ordered. These factors occur In approxlmately ten percent of the child support




                                             Ihcome Data For
                                                                Child Support Orders
                                                               NO"
        Non-    AFDC Absent Parents With
                                                           000 In 1986
                                      Earning Over     $10,

                                                    (n:64)
                                                                        (D)                 (E)
                            (B)                     (C)
  (A)                                                                  Average
                                                 Percntge              Monthy
  Average                  1986                                       Supprt Due         Currntly
                        ' Average                  Increas                                  Due
  Bas Year                                                            Per Wisconsn
  Earngs                  Eargs                   (B) vs (A)

                                                    49%                $338.
   $13, 879 .              $20,686


                                 yea prior to IV-D involvement.
*Bas yea is define as th


        Locaton of Absent Parents                                     case in this category to determne
        We examned the available documentation for each
         the principal reason why no suppon orderabsent
                                                  was established.
                                                        parnt couldMore    located.
                                                                        than
                                                                    not be          In most
                                                                             58 percent of
                                                beause the
         these cass were not purued
      cSE offces, a location attempt was made when the case was opened. However, with
      the exception of Oregon, we found no evidence of any follow-up location attempt
      being made that was not initiated by the custodial parnt. This is significant due to the
      fact that of the 110 cases not being pursued because the absent parent could not be
      located, 81 of these absent parents were employed in 1986. In adtion, 48 percent of
      these employed parnts who could not be located eared more than $10, 00 that year.

      Other Non-Pursuit Reasons
      There ar other reasons why IV- D agencies do not purue a child support order. For
      example, it may be determned that the absent parent has no abilty to pay, based
      earings information available at the tie the case was opened. Twelve percent of the
      cases reviewed fell into this category. Another 12 percent of the study cases were not
      pursued because the absent parnt was in jail, out of the countr, or in a mental
      institution. We found 12 percent of our "other" cases in this category with 27 percent
      of these absent parents earing over $10,00 in 1986. States ' reactions to these
      non- pusuit cases ranged from those feeling that it was useless to pursue cour orders
      when the " absent parent was a total deadbeat, " to States that pursued coun orders from
      absent parnts, regaress of their abilty to pay, in order to establish Social Securty
      and inheritace rights for the childrn.

      Difficulty in proving paternity was the reason for 6 percent of the cases not being
      pursued. Only one case in this sample was considered delayed by judicial
      proceedigs. Twelve percent of the cases reviewed did not disclose any reason why
      there had been no pursuit of a child support order. Fifty- five percent of these absent
      parents eared more than $10, 00 in 1986.
                          Non-AFDC Cases Without Court Orders
                          Broken Down by Non-Pursuit Reasons


                                                                     ;) $10.0

                                                  Lolio              $1 --   tUg,

                                                                     No Ea""no"

                                                                          26S


                           Non- Pursuit Reosons          Location -- by
                                                     Income of Abent Porent
                                                           (110 Ca...)



                                              (N = 189)



2. "Low" Child Support
      Working Absent Parents
     . Our review of 1, 843 cases where the monthly court order was $100 or less per child
      included cases only with coun orders established before 1986. Eighty-one percent of
         these absent parnts were  employed in 1986. The average 1986 earings for all absent
         parents with low orders reviewed was $11 620. Fony-seven percent (874) of these
         absent parnts had earings in excess of $10, 00 for that year.

         Increase in Wages
         Like the absent parnts in the " " support order category, the absent parnts earing
         over $10, 00 in 1986 showed a considerable increase in earings, from an average of
         $11, 819 in the year prior to the most recent coun order, to an average of $21 151 in
         1986. This represents a 79 percent increase in wages for the absent parent, during
         which time the suppon for the children has remained at the same " low " level.



                                            Income Qata

          Non- AFDC Absent Parents With " LOW" Child Support Orders
                        Earning Over $10, 000 In 1986
                                                (n:874)
   (A)            (B)           (C)           (D)           (E)                            (G)
                                            Average       Average
   Average       1986         Perceage      Monthy        Monthy           Percee        Average
   Bas Yea      Average        Incre        Due Per       Curtly           Inease        Area
   Ears         Eags          (B) vs. (A)   WISns          Due             (E) vs. (D)     Due
   $11, 819     521, 151        79%         5366.         $103.54           25%          $477

* Bas yea is defmed as the yea prior to the date of thecunnt cour order.


         Projected Support Payments
         By calculating support amounts for these absent parents based on their CUITent income
         and the Wisconsin formula, the average support per child due would increase to
         $237. 28; a 254 percent incm from the curnt $67. 08. The total monthly support
         payment for the absent parnts in this category would therefore incrase from the
         curnt $103. 54 to $366. 25. This projecte coun order amount excees the AFC
         nee stada in 8 States, and is within $150 of the stadad for 15 other States. Child
         suppo collections frm absent parnts earing over $10, 00 in 1986 would increase
         $2, 755,267 anualy. In adtion , 76 percent of these absent parnts also owe past
         chid support, totag $3, 563,426.

         Nationaly, we estimate that modifications of low coun orders would increase child
         suppon collections by $115- $127 millon annually.

         Alomfreanons Not Punued
         Modyig these coun orders could result in a signifcant incrase in payments to
         childrn curntly receiving less than $100 per month in suppon. However, we found
          no States conducting a systematic, periodc review of low coun orders and most States
          noted that they have no time for modfications. Other factors may mitigate agaist
          pursuing modfications of low coun orders on non- AFC cases, including the
          custodal parnts ' earings level, and the concurnt familial responsibilties brought
          about by a remarage by the absent parnt.

3. " Owe "      Child Support

          Working Absent Parents
          We studied 1, 209 cass where the child suppon was in arars, including both curent
          cases where the childrn ar under 18 and those where past suppon is still due.
          Seventy-seven percent of these absent parnts were employed in 1986, with 45 percent
          (547) earing over $10,   00.
          Increase In  Wages
          These 1 209 absent parnts eared $11, 659, on average in 1986, a 36 percent incrase
          frm the $8, 593 average earings in the year prior to the most reent cour order. The
          547 absent parents who eared over $10,00 increase their average wages from
          $12, 865 to $22, 687 durng this sam period, an increase of76 percent


                                            Income Data

       Non- AFDC Absent Parents Who " OWE" On Child Support Orders
                      Earning Over $10, 000 For 1986
                                 (n=547)

   (A),                   (B)                       (C)                  (D)      (E)
                                                                       Average
   Average               1986                 Percentage               Monthy
   Base Year            Average                Increas                 Suppon    Average
   Earngs * 
           Eargs                (B) vs. (A)               Amount    Arrars

   $12, 865             $22, 687               76%                      273.     $11, 288

 .. Bas yea is defied as the yea pror to the date   of the   cunnt coon orer.



          Child Support Overdue
          The 547 absent parnts earing over $10,00 together owe $6, 174 60 in child support
          payments. An additional $3, 563,426 in arars is due from absent parnts earing over
          $10, 00 in 1986 with low suppon orders.
                                                                                                 . "'




   Increase In Collections

   In tota, our nine State study              grup owes $9,783, 032
                                                      in overdue child support
                                                                            incrased            by
   payments. Nationally. we estiate that child support collections could be
   $765- $850 miion if these arearges were purued by the States in a systematic
   fashion. This would represent a one- tie              increase of up to 34 percent in tota

   non- AFC collections.

    Often, the CSE cases that were AFC cases at one time stil have child suppon
    payments due from that period. When ararages ar collected from absent
                                                                            parnts, the

    AFC arearges that ar collected ar assigned to the States. The States and Federal
    Government shar these collections of AFC ararges at roughly a 2 to 1 ratio.

    Since many of the overdue child support payments in our study represent
                                                                                         AFC
    ararages, substantial State and Federal savings would accre from collections on
                                                                                  the
    these cases. Federal savings in a rage of $245- $270 millon would result fro
    identication and collection of these arars. Appendix A
                                                             detals how these savings
    were computed.

    Other Savings Potential

    No attempt was made to calculate savings in welfare cost avoidace attbuted to child
    suppon collections. Savings are expected, however, when child suppon collections
    ar large enough to remove a famly from
                                               AFC, Foo Staps, and/or Medicaid rolls.
    We did find in our study that the concept of cost avoidace is universaly accepte by
    cSE personnel , as well as child suppon advocates and others knowledgeable about
    child suppon issues. In fact, cost avoidace was cited by many respondents as the
    priar reason for Government involvement in child suppon enforcement.
D. GREAT EXPECTATIONS

     Legislave Change
     The 1984 Child Suppon Amendments promised the non- AFDc population equal
     access to CSE servces. It madated that States provide them with the same IV-
                                                                              of these
     services as the AFC population and that States publicize the availabilty
     services. The problem that has resulted in many States is that cSE agencies are not
                                                                         generate.
     equippe to deal with the volume of cases that this broad policy has

     IV-D Agency Response
     There is also some animosity on the pan of county investigators who resent
     demandig clients or those they personally feel do not fmancially need the State
     services. These local workers frquently remared that non-
                                                                             AFC clients
     expetations concerning what the     CSE agency could do were too high. An extrme
      manifestat;on of this attitude suraced in Texas, where non-
                                                                  AFC clients were non fl
      by the Texas Attorney General, that 

                                                       NON- WELFARE CASES WIIL BE WORK Ff)
      WHEN AND IF TIME ALWS"          (emphasis in original). Clients were advised th.
                                                                well over a year" (l H; :.
      due to budget, stang and legislative demands, delays of "
                                                                                crtical to

   expeted These clients were advised to seek other legal help if time was
                                                  the State of their obligations under the law
    them. The OCSE reacte quickly to remind                                   letter, advising
    to all applicants. The Texas Attorney Genera disavowed the offending
    that its release was unauthorize.

    Client-Driven Cases
    The non- AFC population, as distinct from the
                                                      AFC, expect action on their case.
    The famly receives no child suppon money until the CSE agency   cal,
                                                                          successfully locates
                                                                         they wrte, they visit
    an absent parnt and collects the money owed. These clients
                                                          CSE sta. However, it is
    and they complain. This is a constat frstrtion to
                                                    they were influenced by this client
    interesting to note that these sam staf state
                                                    priority given to their caseload. In
    contact and that complaints often dictate the
     contrt, the child support generate by the
                                                  AFC cases is assigned to the IV-
     agencies. The custodal parnts have 

                                          little incentive to instigate CSE case activity.

                                                    drven priority system, it may not be the
     Regardless of the effectiveness of this client
     most effective, parcularly on the  more   diffcult cases. It was frquently noted by
     public advocacy groups as well as State and county administrators that CSE agencies
                                                           ineffective on the more diffcult
     do a goo job on the easy cases, but ar chronically                             these
                                                               be locate. Keeping
     ones, where an absent parnt is unemployed or can notexpectations      and leads to
     cass active and promising servces perptuates client
     problems in CSE operations.

      Client Restrictions                                            incrase the CSE
      Constat phone calls and complaints concernng these cases
                                                    sta. One IV. D offce has been forced
      workload and add to the frustration of CSE
      restrct custodal parent inquires to one afternoon a month. Another      IV-D agency, in
                                                                        loses its assigned
      effect, punishes the custodal parent who calls because the case
      priority when the IV-D investigator must remove the fIe and respond to the question,
      or tae the updte action reuird by the information being provided         by the custodal
                                                                     custodal parnts may
       parent In some States where a fee is collected for services,
       receive very litte in retu if there is not a coun order in place and if their ex-spouse is
                                        corpration.   One county dictor noted that collection
       not employed localy by a large
                                                     and demand more.
      of a fee just encourges the client to expect


E. INTERSTATE CASES
                                                                             spleased with the

May IV-D workers ar frstrted in workng interstate
                                                         cass. They ar

                                                                        reuest assistance
perceived effor and the actual results they receive on cases where they
                                                         a reuestig State, and often resent
frm other States. They are unfamliar with the needs of cases. The IV-D agencies appreciate
being requid to supply data not neeed on their own
                                         OCSE, but find it too long and complicated.
the new interstate package develope by
                                                         States. This study notes that 58 per­
States noted a parcular problem locating parnts in other                    inabilty to locate

cent of the non- AFDC cases without support orders were dropped due to the
the absent parnt.

       Absent Parent Located Nearby
       In order to investigate the problem of interstate location efforts, we examned the 1986
                                                                               00. A majority
                                                             earing over $10,
        places of employment for the 1,487 absent parents
                                                      earings in the State where the custodal
        of these absent parents (60 percent) had 1986
                              D services. An additional 11 percent worked in a State sharng a
        parent applied for IV-

        common border with that State. Only 29 percent could not be shown to be working in
        that State, or a commn
                                  border State. We could not determne where self-employed
                                                                      g., U. S. Post Offce,
        individuals worked, or those employed by large employers (e.
        General Motors), who repon employee wages from one location.




                                           11i'
                                          6Qn
                                         Stte
                                       Acjo Sttes




                                                          or near to home states of childrn.
           At least 71 % of all deliqunt parnts live in



          Savings From Non-AFDC Interstae Cases
          We examned 87 Oklahoma arars cases opened from the request     of another State.
                                                            00 in 1986. These  absent parents
          Fony-eight of these absent parnts eared over $10,     00 of these  arars  are due
          owed child support of $537,755. We estimate that $144                    arearges
          for AFC child suppon paymnts. States assisting in the recovery of these
           share savings with the reuesting State.

           We found that States do not realize the fmancial benefit that can be achieved
                                                                              AFC        byStates
                                                                                    cases.
           actively puruing the out-of- State requests for assistance on non-          parnt is
           may also use ERF data to clear cases from their workload when the absent
           shown to be working in another State.
       Oregon s Approach
       One State in this study, Orgon , uses a unique approach to locatig absent parents that
       could be used in conjunction with the ERF data. All absent parents without court
       orders, or in arar, ar checked periodcally against Oregon employmnt reords and
       with the Federal Parnt Loator Servce. We compared Oregon s performce at
       locatig the employees for the absent parnts in arar with that of the ERF. Oregon
       was able to locate a more current employer for the absent parnt than the SSA earings
       data in 5 of 59 instaces. Although 92 percent of the cases shows the ERF data
       identiying the sam or a more reent employer than Orgon, the Oregon IV-
       approach to locating absent parnts suggests that States not using wage reportg
       information may not be locating all of the absent parents in their immedate vicinity.


F. STAFFING LEVELS

All the States we visited claied that stafng was inadequate to deal with the curent
caseload. Reports of non- AFC caseloads of over 2, 00 clients per case worker were not un­
cqmmon. However, because of the nature of non- AFC cases, there is no real idea of how
many trly active non- AFC cass there ar or should be. Unlike the AFC cases where
CSE agencies ar   automatically   notified whenever an AFC case closes, there is no mecha­
nism that tells the agency when the custodal parnt no longer wants to purue their case.
Nothing alerts the IV- D agency that the custodal parnt has hired a private attorney, has
moved out of State, has resolved collections with the absent parnt,      or wants the   whole matter
dropped for any number of reasons. The curnt non- AFC           caseload figues ar obviously      se­
verely distorted, and do not reflect the actual univers   of non-   AFC cases that nee attention.
                             RECOMMENDATIONS



Within limits pennlssable under Federal regulation, States should perfonn a logical , sys­
tematic review of all cases, and as a minimum should target the cases where absent par­
ents are earning more than $10, 00 annually.

  This recommendation closely parllels
                                   the recommendation included in the OIG' s Au­
  gust 1987 repon on CSE for AFC cases. In that study we recommended that a mag­
  netic tape be prepared and certified by the State, in the manner in which ta intercepts
  are processed. Given to SSA in June of each year, the tape would generate all prior
  year earings posted, and the employers for those absent parents. Or, IRS can be con­
  tacted for this informtion. Where the absent parent has eared over $10, 00, CSE
  agencies at a minimum should reopen cases without coun orders. Simiarly, cases with
  low coun orders should be considered for upward modfication. The CSE agencies
  should also initiate collection of arear and wage withholding for these cases.

  We estimate that between $765 and $850 millon in past due AFC child suppon pay­
  ments could be collecte from absent parnts now earing over $10, 00. Their collec­
  tion, shar by the States and Federa Government, would represent Federal savings in
  a rage between $245 and $270 milion.
  In response to a similar recommendation on the AFC cases, OCSE suggested that
  State employment data would be a better source to locate absent parents. The OCSE
  felt that this should be the first attempt to locate the absent parnt in order to establish
  modfy or enforce a child support order. We agre with this approach. However, if
  States are unable to obtan this wage reponing information, use of the ERF data or IRS
  information is preferable. The OCSE is cunently arnging for IV- D agencies to gain
  access to the IRS wage and employer information; Until all State IV- D agencies have
  access to wage reportg informtion in their own State, and can share this data on de­
  mand frm other IV- D agencies, the ERF and IRS match represents the best method to
  obtan complete wage and employer information.


Agency Comment:

  The fllst test of Project 1099 sharng the IRS wage information with the States has
  ben completed. The OCSE has an agrment with IRS to provide this data on an on­
  going basis.

  The FSA was unclear on the baseline used to project the rage of Federa savings.
  This baseline, descrbe in Appendix A, is the amount of non- AFC arar as of Sep­
  tember 30, 1987, as reported by FSAto Congrss. The FSA did point out that our re­
  view may not have identified all of the non- AFDC arearge cases. This is corrct,
  and thus our savings rage may be somewhat understated.
The IV- D agencies should periodically advise the non- AFDC clients on the status of their
cases.

   By keeping clients up to date on what is happening to their case, CSE agencies could
   reduce the number of complaints and client contact and significantly lighten their
   workload. At the same time, notification letters should request informtion on the case
   and whether or not the client is interested in continuing action. This would give States
   and the OCSE a more accurate count of the CSE caseload so that stang levels and
   systems capabilties can be assessed in terms of the non- AFDC workload.

Agency Comment:

  The new performance stadards regulations wil      specify case closure   criteria for both
  AFC and non- AFDC cases establishing clear standads for the conditions under
  which a case may be closed. These performance standards should improve all aspects
  of CSE activity.


The OCSE should continue to work toward making Intrastte and Interstate employment In­
formation available to IV- D   agencies.


  The DOL operates a system called Internet, which contains employment data from the
  States ' wage reportng agencies. The information on absent parnts in this system is
  vital to resolving many CSE cases but has not been available for IV- D agencies. In the
  long term , IV- D agency access to this fie would obviate the need for computer
  matches to locate absent parnts. As required by the welfare reform legislation , OCSE
  has entered into an agreement with DOL to open State wage reponig informtion to
  IV- D agencies for CSE purposes. The OCSE is also developing a child support en­
  forcement telecommunications network which should furter enhance         establishing,
  modfying, and enforcing child support court orders.

Agency Comment:

  The Federa Parent Loator Service must now negotiate agreements with each of the
  States to be able to provide the State employment security data accessed by
  Internet to other States for child support purposes.
                                    ENDNOTES



Lenore J. Weisman, 
                The Divorce Revolution:   The Unexpected Social and
Economic Consequences for Women and Children in America.
(New York: Free Prss, McMillan , Inc. 1985)

The OIG issued four reports in August 1987 emanating from this study.
They ar entitled:
Child Support Enforcement Collections on AFDC Cases An Overvew;
Child Support Enforcement Collections on AFDC Cases NonPursuit;
Child Support Enforcement Collections on AFDC Cases Modifications
of Court Orders;  and Child Support Enforcement Collections on
AFDC Cases Arrearages.

Appendi B provides a complete list of the advocacy groups contacted
during this study

United States Bureau of the Census, Current PopulationReports
(March 1986) 
 Status and Living Arrangements: March 1985
(Series p20, No. 410). ' Washington, D. C.: Government Prnting Offce.

The CUITent AFDC need standards, as defined by the States ar              included
in Appendix C.

This estiate is computed in the same manner as the estimate for computing
savings shown in Appendix A. The range of savings is shown to reflect
shared physical custody, estimated at 8.3 percent 
           (Mell, Erlanger, and
Chambliss "The              Process of Negotition: An Exploratory Investigation in
the Context of No-fault Divorce , Rutgers Law Review, Vol. 40:1133-1172).
An additional reuction was made to account for the very small numbers
of absent parnts with more than one child support obligation. According
to a University of North Carolina study, 
         Estimates of National Child
Support Collections and the Income Security of Female-Headed Families
 Office of Child Support Enforcement, April 1 1985,            much less than a
3 percent reuction would occur due to fathers having more than one
support collection.

Ibid.
APPENDICES

                                                                             APPENDIX A

METHODOWGY FOR SUPPORT ORDER ESTIMATES AND FEDERA SAVINGS

      The 10t annual report to Congrss on child suppon was analyze to determne which
      States to select. Due to the natur of the focus of this inspection , consideration was
      given to States with high non- AFDC caseloads, and those States with a high percentage
      of non- AFC cass in which collections are made. Twelve States were exclude from
      consideration since they had recently parcipated in our study of AFC CSE cases.

Non- AFC cases were reviewed in nine IV- D offices. These offices were: Orange County,
California; New Castle County, Delawar; Fulton County, Georgia; Worcester County, Mas­
sachusetts; Douglas County, Nebraka; Morrs County, New Jersey; Oklahoma County, Ok­
lahoma; Multnoma County, Orgon; and Natrona County, Wyomig.

All offices provided cases in al thee categories except New Jersey and Massachusett, which
provided low coun order and arearge cases only. Orgon provided only one case without a
suppon order. llinois provided cases for Lake County, but the data were reeived too late for
inclusion in this study.

We extracted data only from non- AFC cases where an SSN for the absent parnt      was on   fie.

     A case study was made of 189 non- AFC     IV- D cases where no child suppon order was
     in place. We studied 1, 843 cases where a support order was in place, but required
     monthly suppon payments were $100 or less per child. We studied 2 610 cases where
     arars exist. Of these, 1 401 were also cases with low suppon orders. All savings
     projected are based on the following conditions being tre.

     We based the estite for establishing or modfying coun orders only for those absent
     parents who eared over $10,00 in 1986. The Wisconsin stadad for deriving child
     suppon levels was used. The Wisconsin formula for determning child support was
     chosen for ease in computing estimated suppon amounts. The percentage of the absent
     parents ' income was used:



                 Children                    % of gros income
                                                    17%
                                                   25%
                                                   29%
                                                   31%
                 5 or more                         34%
We based the Federal savings estimate for collecting arear only for those absent parnts who
eared over $10, 00 in 1986.

      The percentage of the States non- AFC IV-D workload in the offices visite was
      multiplied by the percentage of the national non- AFC IV- D workoad to determne the
      percentage of national workload in each office. These were aded to derive the national
      percentage of cases these offices represent.

The following table shows the percentage for the nine IV-D offices that provided arearge
cases.



                        PERCENTAGE OF NATIONAL IV-D NON- AFDC
                            WORKLOAD FOR OFFICES VISITED


   STATE            % OF NATIONAL *     OFFCE          % OF STATE         PROPORTION OF
                    IV-D NON. AFDC                     IV-D NON- AFDC     NATIONAL
                    WORKLOAD                           WORKLOAD           NON- AFDC IV
                                                                          WORKLOAD
   Californa            12.             Orange                              007940
   Delawar                              New Castle           60.            001800
   Georgia                              Fulton               20.            005200
   Massachusett          1.2           Worcete                              001080
   Nebraska                            Douglas               45.            001800
   New Jersy            4.1            Mor                                  00820
   Oklahoma                            Oklahoma              25.            002250
   Oregon                              Multnomah             33.            0062
   Wyom                                Nalrna                20.            00200

   * Source: OCSE
   ..Sour: Sta IV-





The computation of the savings is as follows: The OCSE reported $3, 398, 555, 091 as the non-
AFC arear outstadig as of September 30, 1987 in their twelfth annual report to Congrss.
This amount was multiplied by the proporton of monies due on non- AFC cass as a result
of uncollected AFC arearges. These ararages represent child suppon paymnts assigned
to the State while the famly was reeiving AFC benefits. When child support ararges are
collecte on these cases, payment is made to eliminate the AFC ararges sti owed. The
Federa Government and the States share these ararge collections.
                                             =.




The OCSE    agr with OIG that four of the counties in our sample would provide a repre­
sentative mix of the national non- AFC population. Fulton County in Georgia, Morrs Coun­
ty in New Jersey, Orge County in California and Douglas County in Nebraska provided
non- AFC case data showing ararges due by absent parents earing over $10, 00 in 1986,
with a breakout of the amunts due for AFC ararages, and for non- AFC ararages. The
total arearges due from these absent parnts totaled $10, 499,255 of which $2, 820,910 repre­
sented AFC arearges stil owed, or alost 27 percent of the tota.

                                10.499.255        26867
                                  820, 910

We assume that these 4 counties ar representative of other counties in terms of non- AFC ar­
rearages. However, we rounded the percentage down to 25 percent to insure a more conserva­
tive estimate. We then multiplied the percentage of carover AFC arars by the national
reported tota of non- AFC arars to obtan the amount of arear that could be collected
from those earing over $10, 00.

                                $3, 398, 555, 091 x . 25   = $849, 638, 773


The Fedra    shar was computed by multiplying this tota by the Federa shar of the Fiscal
Year 1986   AFC collections.
                                $849, 638, 773 x .32 = $271, 884 407

Realizing that the data on which these projections ar based ar more approximate than ab­
solute, we felt that a ten percent range would more accurately portay the Federal savings for
these cases. Therefore, we estimate the range of F    ra savings for these cases to lie between
$245 and $270 millon.



It is possible that this estimate of savings may be understated for the following reasons:

              Some IV-D offices had great difficulty in identifying cases. We proeeded on
              the assumption that the 2 610 cases reviewed represent all of the non- AFC
              ararage cases in these IV- D offces. Obviously, if there ar in fact more cases
              in these offices, our savings would incrase.

              The ERF identied   may absent parnts who eared less than $10,00. The
              IV-D agencies wil be able to collect ararages and institute wage withholding
              for many of these parnts as well. The aritrar $10,00 was use since these
              jobs ar more likely to be long term in natu.

              No savings were computed for the cost avoidace that would accre from       :h IIJ
              support collections being established, increased, and/or enforced. Many!. I: ,: , ; t" ,
              wil not have to rely on AFC payments, Medcaid and Foo Staps OIh. t



                                                  A-3
              adequate child support orders ar established and enforced. If a famly again
              nees AFC payments in spite of child suppon payments, savings could stil be
              realized as a result of the absent parent s famiy health care coverage, which
              would negate the need for Medcaid coverage.

      The national projections for increasing child support collections by establishing court
      orders was computed by dividing the totas of projected coun orders by the national
      percentage of cases represented in this study (. 021552). For those with low coun
      orders, we divided this percentage into the increase in the projected coun orders.
                                                                                         For
      estiating the increase in wage withholding, the annual support due for those in arears
      (excluding those with low coun orders) was divided by this percentage. The amounts
      projected for cases without coun orders, or with low coun orders is likely to be
      understated. Many of the IV - D agencies did not identify the number of children who
      would be covered by the coun order. All projections were based on one child
                                                                                     only.
      Also, we made no estimates for children over age 18. Coun orders extend beyond that
      age in many States.

The range of estimates shown in the report for potential increas collections for these two
categories of cases takes cognizace of situations where absent parents may have more than
one child suppon coun order, or where shar joint physical custody may occur.
                                                       APPENDIX B


PUBUC INTEREST GROUPS CONTACTED          CIT     STATE



Association for Childrn for              Sandy, Orgon
 Enforcement of Support (ACES)           Casper, Wyoming

Child Support Self- Help Group           Cleveland, Tennessee

Child Support Task Force                 Omaha, Nebraska

Childrn and    Parents Support           Lansdowne, Pennsylvania

Coalition to Help Enforce                Atlanta, Georgia
 Child Support

Custodal Associates Seeking              Chicago, Illiois
 Enforcement of Child Support (CASES)

Dads After Divorce (DADS)                Tulsa, Oklahoma

Every Child' s Help Organiztion (ECHO)   Allegan, Michigan

Ilinois Task   Force on Child Support    Chicago, Illinois

Mothers Agaist Non- Support (MAN)        Cambridge, Massachusetts

National Women s Law Center              Washington, D.

Organiztion for Prtection of             Glendae, Arna
 America s Children (OPAC)

Parnt s Advocates for Children           Indianapolis, Indiana
 Equal Rights (PACERS)

Parnts Organze for Support               Hendersonvile, Tennessee
 Enforcement        SE)

Parnts Without    Parers                 Boston, Massachusetts

School of Social Work                    Chestnut Hill, Massachusetts
 Boston College
PUBLIC INTEREST GROUPS CONTACTED        CIT     STATE


School of Social Work                   Nortampton , Massachusetts
 Smith College



Separted Persons Living                 Nort Bay Shore, New York
 Trasition (SPLIT)



Single Parnts United ' N Kids (SPUNK)   Long Beach , Caifornia

Suppon for Dependent Children           Holidaysburg, Pennsylvania

Support Our Children                    Midwest City, Oklahoma

Virginia Poveny Law Center              Richmond, VIrgiia


Volunters Lawyers   Project             Boston, Masachusetts

Women ' sLegal   Defense Fund           Washington, D.

Women s Law Project                     Philadelphia, Pennsylvania
                                                                                APPENDIX C
                AFDC NEED STANDARDS AND   MAXIMUM PAYMENTS AS OF JULY                  1987
                                         Ranked by State
                                                                               MAXIUM
  State                Rank   STANDARD        State                     Rank   PAYMENT

  Alabama                         $480        Alabama                            $147
  Alaska                          823         Alaska                             823
  Arzona                          748         Arna                               353
  Arkanas                         820         Arka                               238
  Calorna                         753         Calora                             753
  Colorado                        510        Colorado                            420
  Connecticut                                Connecticut
  Delaware                        363        Delaware                            363
  DiL of Col.                     870        DiSL of Col.
  Florida                         933        Florida                             312
  Geogia                          432        Georgia                             310
  Guam                            210        Guam                                210
  Hawai                           547        Hawaii                              574
  Idao                            627        Idao                                344
  illiois                         778        Ilois                               386
  Indian                          385                                            346
  Iowa                            578        Iowa                                443
  Kanas                                      Kan
  Kentucky                        246        Kenblcky                            246
  Louisiana                       750        Louisiana                           232
  Maie                            720        Maie                                509
  Marlan                          598        Marland                             432
  Massachusetts                   590        Massahustt                          635
  Michigan                        662        Michigan                            551
  Minesota                        621        Minta                               621
  Mississippi                     443        Misissippi                          144
  Missour                         365        Misour                              330
  Monta                           513        Montaa                              425
  Nebraska                        420        Nebraska                            420
  Nevada                          341        Nevad                               341
  New Hampshie                    541        New Hampshie                        541
 New Jersey                       488        New Jerey                           488
 New Mexico                       313        New Mexico                          313
 New York                         596        New York                            596
 Nort Carolia
                    566        Nort Carli                          284
 Nort Dakota                      454        Nort Dakota                         454
 Ohio                             834        Ohio                                382
 Oklahoma                         583        Oklahoma                            384
 Oregon                           501        Oregon                              501
 Penylvana                        724        Penylvana                           451
 Pueno Rico                       208        Puer Rico                           104
 Rhod Islan                       546        Rhode Island                        546
 South    Carli                   467        South Carolia                       240
 South Dakota                     408        South Dakota                        408
 Tenssee                          431        Tenesse                             194
 Texas                            691        Texas                               221
 Uta                              809        Uta                                 439
 Veront                           991        Venont                              676
 Virgin Islads                    263        Virgi Islands                       215
 Washigton                        941        Washigton                           578
 West Virgia                      623        West Vllgina                        312
 Virgin                           386        Virgia                              347
 Wisconsin                        772        WISnsin                             656
 Wyomig                           390        Wyomig                              390

Source: Family    Supp Admstron

                                               C - 1

